  Board of Governors of the Federal Reserve System




AUDIT OF THE BOARD’S COMPLIANCE
WITH OVERTIME REQUIREMENTS OF
 THE FAIR LABOR STANDARDS ACT




   OFFICE OF INSPECTOR GENERAL

                                               March 2007
                                             March 9, 2007


The Honorable Kevin M. Warsh
Chairman, Committee on Board Affairs
Board of Governors of the Federal Reserve System
Washington, DC 20551

Dear Governor Warsh:

         In our December 2006 report on the Audit of the Board’s Payroll Process, we noted a potential
issue related to compliance by the Board of Governors of the Federal Reserve System (Board) with
requirements of the Fair Labor Standards Act (FLSA). During the conduct of this audit, an officer in the
Management Division (MGT) suggested we review the programming logic used by the Board’s payroll
system to calculate FLSA overtime premiums. To address this issue, we performed additional audit work to
determine whether the Board’s payroll system correctly calculates FLSA overtime premiums and whether
Board employees eligible to receive the premium have been appropriately identified in the system. Because
our work focused on the processing accuracy of the Board’s payroll system, we did not evaluate specific
position descriptions to determine if they were appropriately classified. Our fieldwork, conducted between
November 2006 and January 2007, was performed in accordance with generally accepted government
auditing standards.

         The enclosed briefing package provides our audit findings, conclusions, and recommendations, as
well as additional background information and a more in-depth description of our audit objectives, scope,
and methodology. We presented these results to responsible MGT and Legal Division officials on
March 1, 2007. During the briefing, MGT officials generally concurred with our findings and discussed
actions that have been or will be taken to address the recommendations. We will follow up on actions
taken as part of future audit and evaluation work.

        We appreciate the support and assistance of MGT staff throughout this project. This letter and the
enclosed presentation will appear on our publicly-available web page and will be summarized in our
semiannual report to the Congress. We are available to answer any questions and we would be happy to
brief you or the Committee on Board Affairs on the results of our audit work.

                                                Sincerely,

                                                 /signed/

                                              Barry R. Snyder
                                             Inspector General

Enclosure

cc:   Vice Chairman Donald L. Kohn
      Mr. Stephen R. Malphrus
      Ms. H. Fay Peters
      Mr. Todd Glissman
Compliance with FLSA Overtime
        Requirements




                                   OIG
                    O ffice of Inspector General
                                    March 2007



                                                   1
   Table of Contents


 Background
 Objectives
 Scope and Methodology
 Results
 Recommendations




                          2
                       Background

 The Fair Labor Standards Act of 1938 (FLSA)
  establishes minimum employment standards, including
  overtime pay.
    Employees in positions covered by FLSA are considered
     ‘nonexempt’ and are entitled to receive compensation for
     overtime hours worked.
    FLSA exempts employees in particular positions from the
     overtime provision, such as those in executive, professional,
     or certain administrative and computer-related positions.

 Two federal agencies have key FLSA responsibilities:
    Department of Labor (DOL) establishes regulations and
     guidance governing private sector employers.
    Office of Personnel Management (OPM) establishes
     regulations and guidance applicable to the federal
     government.
                                                                     3
                       Background

 Both sets of regulations provide guidance for calculating
  overtime, to include what the Board refers to as the
  “FLSA premium.”
    The calculation factors in other forms of premium pay, such as
     night differential or Sunday pay.
    The FLSA premium results in compensation that exceeds the
     traditional time and one-half for overtime hours worked.




                                                                      4
                                            Background

 DOL and OPM regulations differ in their computation of the
  FLSA premium. For example:

      Provision                    DOL Regulation                           OPM Regulation
      Hours worked –               Overtime must be paid for hours          Allows overtime to be paid for hours
       Daily overtime              worked in excess of 40 hours in a        worked in excess of 8 hours in a day
                                   workweek.                                or 40 hours in a workweek.1


      Hours worked –               Hours spent in a paid leave status       Hours spent in a paid leave status
       Leave                       (i.e., sick or annual leave) are not     (sick or annual leave) are included in
                                   included in overtime calculations.       overtime calculations.


  1
      The OPM regulation accommodates flexible work schedules in determining what qualifies for overtime on a daily
      basis (i.e., 9-hour or 10-hour workdays)




                                                                                                                      5
                       Background

 The Board of Governors of the Federal Reserve System
  (Board) has independent pay and compensation
  authority under Section 10 of the Federal Reserve Act.
    When FLSA amendments made the law applicable to federal
     employees in 1974, the Board approved voluntary compliance
     with FLSA to provide equitable payment of overtime and directed
     that adequate procedures be established to ensure Board
     policies reflect the purpose of the law.

 The Board’s policy on Premium Pay for Overtime and
  Holidays states that overtime for nonexempt employees
  will be paid using FLSA guidelines. The policy also
  authorizes paying overtime to all wage grade employees,
  which the policy defines as employees paid based upon
  “an hourly rate schedule in a recognized craft or labor
  position.”                                              6
                        Background

 The Board maintains a customized version of an off-the-
  shelf software application to manage its payroll and other
  human resources information.
    The Management Division (MGT) has overall responsibility for
     payroll processing.
    MGT’s Administrative Systems Automation Program (ASAP)
     provides technical, infrastructure, and administrative support for
     the software application.
    ASAP staff developed a software program to compute the FLSA
     premium; the program must be manually initiated each payroll
     cycle.




                                                                          7
                           Objectives

As we noted in our December 2006 report on the Audit of the Board’s
Payroll Process, we identified a potential issue related to compliance
with FLSA requirements. This issue was initially brought to our
attention by an officer in MGT. We deferred additional FLSA-related
audit work until the payroll audit report was finalized.

Our audit objectives were to:

        Determine whether the Board’s payroll system correctly calculates
         FLSA premiums

        Determine whether Board employees eligible to receive the FLSA
         premium under the law and accompanying regulations have been
         appropriately identified in the system

Our objectives focused on the Board’s payroll system and the accuracy
of system processing. Accordingly, we did not evaluate specific
position descriptions to determine if they were appropriately classified.
                                                                             8
        Scope and Methodology

 Interviewed MGT and Legal Division staff
 Reviewed Board policies and legal documents
 Reviewed FLSA provisions and corresponding
  regulations from DOL and OPM
 Interviewed DOL and OPM staffs
 Evaluated payroll data, and recalculated FLSA
  premiums, for the first half of 2006
 Conducted the audit in accordance with generally
  accepted government auditing standards




                                                     9
                Objective 1: Results

We found that the software calculation for the FLSA
 premium is correct, however there were instances
 where these payments were not processed.

 ASAP staff developed a software program to compute
  the FLSA premium. Our recalculation of 955 FLSA
  premium payments made during the first half of 2006
  generally confirmed the computation’s accuracy, with
  expected variances due to rounding.
    We identified 5 differences greater than five cents which we
     provided to MGT staff for their detailed review. These
     discrepancies may be related to timing differences.



                                                                    10
                Objective 1: Results

 Payroll staff must manually initiate the process to
  compute the FLSA premium. We found that:
    The process was not executed for one pay period in May 2006,
     therefore, no FLSA premiums were paid for that pay period.
    For several other pay periods in 2006, a few employees did not
     receive the FLSA premium possibly because all other forms of
     premium pay that affect the FLSA premium calculation had not
     been entered before the FLSA premium process was executed.
    The missed payments totaled approximately $660 and affected
     85 employees.
       We confirmed the missed payments for May 2006, totaling almost
        $560, were corrected.
       Payroll staff informed us the remaining missed payments have also
        been corrected.
    Payroll staff also requested that ASAP automate the process to
     run the FLSA premium calculation.

                                                                            11
                Objective 1: Results

 The customized software does not properly process
  negative FLSA premiums resulting from adjusting
  entries.
    Adjusting entries may result from reversal/correction of another
     type of premium pay.
    The customized software does not post a corresponding
     negative adjustment to the employee’s FLSA premium.




                                                                        12
                                Objective 2: Results

Our analysis showed that nonexempt staff who receive
  the FLSA premium, in accordance with current
  Board practice, are properly identified in the payroll
  system.
  The table below identifies categories of Board employees and
  corresponding premium pay information.
                                 Exempt                  Non-exempt                   Wage Grade
       Grade                    FR21-29              FR31-36      FR21-24        41-46          45-47
                 1
       Pay Group                   FR2                 FR1          FR2        ENG & WE          WE
       System FLSA status        Exempt             Nonexempt    Nonexempt     Nonexempt       Exempt
                                       2
       Received Overtime?          Yes                 Yes          Yes           Yes            Yes
                                       2
       Received Other              Yes                 Yes          No            Yes            No
       Premium Pay?           (ND, Sun, Hol)      (ND, Sun, Hol)               (Shift, Sun,
                                                                               Hol,OT2/3,
                                                                              SU2/3, HL2/3)
       Received FLSA                No                Yes           No             No            No
       premium?
                                            Highlighted cells indicate discussion points on subsequent slides


   1
       Pay Group is a payroll system identifier       Premium Pay Key
   2
       A limited number of exempt employees           ND = Night differential Sun = Sunday                 Hol = Holiday
       receive these payments                         OT2/3 = 2nd or 3rd shift overtime in addition to standard overtime & shift
                                                      SU2/3, HL2/3 = Sunday or Holiday shift pay in addition to shift

                                                                                                                                   13
            Objective 2: Results

As the data in the previous table shows, not all
nonexempt employees receive the FLSA premium.
Although overtime payments generally meet or exceed
FLSA requirements, the Board’s current premium pay
policy does not adequately describe the different
methods used to calculate overtime.
We identified several differences between Board policy
and practice as described on the following slides.




                                                         14
                Objective 2: Results

 Board policy:
   Overtime for nonexempt employees will be paid using FLSA
    guidelines if no leave is taken during the basic workweek.

 Board practice:
   The FLSA premium calculation uses the appropriate formula in
    accordance with FLSA guidelines. However, staff in positions
    recently reclassified as nonexempt do not receive other types of
    premium pay, such as night differential or Sunday pay, which
    would generate an FLSA premium payment.
       These positions remain assigned within the payroll system to a pay
        category associated with exempt positions, even though their FLSA
        status is nonexempt.
       If the Board were to decide to pay these employees other types of
        premium pay, the payroll system, as currently configured, would not
        pay these employees the FLSA premium.
   Leave is not a factor in the Board’s overtime calculation.
                                                                          15
                    Objective 2: Results

       Board policy
         Overtime for all wage-grade employees will be paid at one and
          one-half times the basic hourly rate of pay.


       Board practice
         Overtime calculation includes more than the basic hourly rate of
          pay for wage grade positions earning shift differential.
         These nonexempt employees receive a form of overtime
          compensation that factors the shift differential into supplemental
          overtime pay.




                                                                           16
                     Objective 2: Results

       Board practice (continued)
         Because their overtime pay generally exceeds the FLSA
          premium, staff in wage grade positions are not paid the FLSA
          premium.
             In the first half of 2006, these employees received approximately
              $1,870 more in overtime compensation than they would have
              received with the FLSA premium.
         However, we identified nine shift employees who did not
          receive the FLSA premium or the higher supplemental overtime
          pay for all overtime hours worked. These employees may have
          been underpaid by approximately $145.




                                                                              17
               Recommendations

•   We recommend that the Director of MGT enhance
    FLSA premium processing by
     • establishing controls to ensure all other forms
        of premium pay are entered before the process
        is run,
     • establishing controls to ensure the process is
        run or eliminating the manual intervention
        required to initiate the process, and
     • correcting the system logic for processing
        FLSA premium adjustments.




                                                         18
               Recommendations

2. Consistent with a recommendation in our report on
   the Audit of the Board’s Payroll Process, we
   recommend that the Director of MGT revise the
   current policy for premium pay to
   a) accurately describe the methods of calculating
      overtime pay for all Board employees, and
   b) ensure the policy fully reflects the purpose of the
         FLSA.

  This revision may require system modifications to
  appropriately implement the new policy.



                                                        19
